Memorandum from the Office of the Inspector General



September 21, 2012

Robert M. Deacy, Sr., LP 5D-C

REQUEST FOR FINAL ACTION – AUDIT 2011-13781 – LESSONS LEARNED AT
LAGOON CREEK COMBINED CYCLE PLANT



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Scott M. Norris, Senior Auditor, at
(865) 633-7331 or Lisa H. Hammer, Director, Operational Audits, at (865) 633-7342.
We appreciate the courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

SMN:DBS
Attachment
cc (Attachment):
      James R. Dalrymple, LP 3K-C
      Micheal B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7C-K
      Peyton T. Hairston, Jr., WT 7B-K
      Joseph J. Hoagland, WT 7C-K
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Robert B. Wells, WT 9B-K
      OIG File No. 2011-13781
 


        
 


                                         Audit Report
 
Office
      of the Inspector General                                       

                                     To the Senior Vice President,
                                     Generation Construction        

                                                                     

 

 

 

 


LESSONS LEARNED AT
 

 
LAGOON CREEK
 

COMBINED CYCLE PLANT
 



 




 

 
 
 

 
Audit Team                                           Audit 2011-13781
Scott M. Norris                                    September 21, 2012
Michael L. Lane


                                  
Office of the Inspector General                                             Audit Report




ABBREVIATIONS
BFN                        Browns Ferry Nuclear Plant
COO                        Chief Operating Officer
CT                         Combustion Turbine
FGD&C                      Fossil Generation Development and Construction
FPG                        Fossil Power Group
GC                         Generation Construction
JCC                        John Sevier Combined Cycle Plant
LCC                        Lagoon Creek Combined Cycle Plant
NUS                        New Unit Services
SBU                        Strategic Business Unit
SPP                        Standard Programs and Processes
SVP                        Senior Vice President
TVA                        Tennessee Valley Authority




Audit 2011-13781
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 3

FINDINGS ......................................................................................................... 4

    CRITERIA TO IDENTIFY LESSONS LEARNED IS LACKING ....................... 4

    PROCESS IMPROVEMENTS COULD BE MADE .......................................... 7

    MECHANISMS FOR REVIEW ........................................................................ 8

    USE OF LESSONS LEARNED BETWEEN ORGANIZATIONS ...................... 9

RECOMMENDATIONS ................................................................................ 10

MANAGEMENT’S RESPONSE AND OUR EVALUATION.................. 10


APPENDIX

MEMORANDUM DATED SEPTEMBER 5, 2012, FROM ROBERT M.
DEACY, SR., TO ROBERT E. MARTIN




Audit 2011-13781
                   Audiit 2011-13
                                3781 – Le
                                        essons Leearned att Lagoon
                                                                 n
                             Creek Comb bined Cyc
                                                cle Plant
                               EXECUTIV VE SUMM MARY

As
A the nation’s largest public power system, Tennessee           e Valley Au uthority (TVAA)
utilizes a varriety of gen
                         neration sou    urces to proovide power. Among tthose are
TVA’s
T       naturaal gas/oil-firred facilities
                                         s, which incclude comb bustion turbbine plants.
TVA’s
T       portfo
             olio of naturral gas/oil-fiired facilitie
                                                     es as of Sep
                                                                ptember 30  0, 2011,
consisted off 13 facilities with a total of 98 uniits capable of producin    ng
approximate  ely 8,200 megawatts of     o electric po ower. Thesse facilities represent a
mixture
m        of asssets that were
                          w      purcha  ased or lea ased by TVAA and asse  ets that weree
constructed under conttract with TV      VA. Construction of fa acilities succh as these
                                                                                       e is
th
 he responsiibility of thee Generatio   on Construcction organiization, prevviously knoown
as Fossil Ge eneration Developmen
                         D               nt and Consstruction.

The
T Fossil Generation
           G             Developme ent and Con   nstruction o
                                                            organization n was
established in fiscal yea
                        ar 2009 and d subseque  ently renam med Genera  ation
Construction
C          n (GC) durin ng a recentt reorganiza  ation within
                                                            n TVA. GC is responsible
fo
 or, among other
           o      thingss, large con
                                   nstruction p rojects for aall non-nucclear genera ation
groups. Thee New Unit Services group within     n GC is resp ponsible forr all new, non-
nuclear geneeration. Mo ost of the work
                                   w      perform
                                                med by New   w Unit Servvices is for tthe
design, proc
           curement, and
                       a construction of sim   mple-cycle a  and combin ned-cycle
combustion turbine plants, including the Lago    oon Creek Combined Cycle Plan      nt
(L
 LCC) locate
           ed near Bro ownsville, Tennessee,
                                   T              and John S Sevier Com mbined Cyccle
Plant
P     (JCC) located near Rogersv   ville, Tennesssee.

GC
G maintain  ns a databaase of lesso ons learnedd from projeects on its S
                                                                       SharePoint site.
A lesson is defined
             d       as some
                        s      usefuul knowledgge or sense e that resultts from dire
                                                                                   ect
experience. Lessons le  earned invo olve collect ing informa
                                                           ation on eveents and
in
 ncidents tha
            at either positively or negatively
                                    n          im
                                                mpacted th he conduct or performa   ance
of a project. Lessons leearned can  n be used foor future pro
                                                            ojects to prrevent repeeated
 ssues and improve sub
is                      bsequent performance
                                   p            e, such as oother projeccts similar tto
LCC and JC CC.

Because
B         of the potentia
                        al usefulnesss of a sound lessonss learned prrocess in
completing generation
             g           constructio
                                   on projects eeffectively a
                                                            and efficienntly, we
re
 eviewed the e lessons le
                        earned proccess used d during the cconstruction  n of LCC. T The
audit objective was to identify less
                                   sons learneed and how  w those lessons are being
or can be appplied to subsequent construction
                                   c           n projects. The audit a   also focuseed on
th
 he lessons learned pro ocess ratheer than just substantive e testing off lessons fro
                                                                                    om
one project to
             t the next because th he process review app   proach adde   ed more vaalue
in
 n the audit team’s
             t      opin
                       nion.

We
W determin  ned GC has   s a process
                                   s in place fo
                                               or lessons llearned maanagement, and
during the audit, TVA isssued TVA--SPP-34.01    16, Project Lessons Leearned
Managemen
M           nt, which prrovides benneficial guid
                                               dance on the roles andd
re
 esponsibilities of proje
                        ect teams in
                                   n regards too managing g lessons le
                                                                     earned.

                                                                                       Page i
                  Audiit 2011-13
                               3781 – Le
                                       essons Leearned att Lagoon
                                                                n
                            Creek Comb bined Cyc
                                               cle Plant
                              EXECUTIV VE SUMM MARY

However,
H          wee identified some poteential areass of improve
                                                          ement in thee GC proceess.
Specifically,
S             we determ mined (1) the
                                    ere is no doocumented criteria or review proccess
fo
 or determining what is or is not a lesson learrned, (2) th
                                                          he process ffor
documenting  g lessons leearned could be impro  oved, and (3
                                                           3) there are
                                                                      e no
mechanisms
m           s to reasonably assure  e project teaams are reviewing lesssons learned
frrom previou
            us projects or relevant lessons lea arned are incorporated into the
project’s sco
            ope.

We
W also determined im
                   mprovementts can be m
                                       made in sha
                                                 aring lesson
                                                            ns learned
across TVA organizatio
                     ons.

We
W recomm
       mend the GC
                 C organizattion:

   Develop and documment criteriaa for determ
                                             mining if issues are in ffact lessonss
    learned and/or
            a      bestt practices.
   Ensure th
            he databasse is comple
                                 ete with all lessons lea
                                                        arned, inclu
                                                                   uding those
                                                                             e
    presente
           ed to TVA’s Chief Operating Officcer and best practices from positivve
    experiences to prom
                      mote repeatt application in future projects.
   Develop and implem
                     ment a proccess for scrreening new
                                                      w and edite
                                                                ed lessons
    learned for
             f reasona
                     ableness, co
                                onsistency,, completenness, and o
                                                                other target
    qualities..
   Systemaatically requ
                       uire all fields
                                     s to be populated whe en submittin
                                                                      ng a lesson
    learned or
            o initiate a process to o track down n the missin
                                                            ng informattion. Also,
    manage database integrity by removing t he entries tthat do not include a
    problem descriptionn or ensurin  ng the probllem descrip
                                                           ption is com
                                                                      mpleted.
   Develop mechanism    ms to provid
                                    de reasona ble assuran nce that pro
                                                                      oject teamss
             w the datab
    (1) review           base for les
                                    ssons learneed from preevious proje
                                                                      ects and
    (2) incorp
             porate relevvant lesson                      oject’s scope. One opttion
                                    ns learned into the pro
    would be e for the pro
                         oject team to
                                    t sign-off o
                                               on the proje
                                                          ect processs checklist that
    these activities weree completed.
   In cooperation with other organ nizations, d
                                               develop an entity-widee repositoryy to
    capture the
            t details of o lessons learned
                                    l       acrross TVA organization ns so that th
                                                                                 hose
    outside the originatiing organization can aalso benefit from the exxperiencess.

TVA
T     management gene   erally agree
                                   ed with ourr recommen          nd has taken or
                                                        ndations an
is
 s taking actions to add
                       dress these recommen   ndations. S
                                                        See the App
                                                                  pendix for
TVA’s
T       compplete respon
                       nse.




                                                                                 P
                                                                                 Page ii
Office of the Inspector General                                                                   Audit Report


BACKGROUND
As the nation’s largest public power system, Tennessee Valley Authority (TVA)
utilizes a variety of generation sources to provide power. Among those are
TVA’s natural gas/oil-fired facilities, which include combustion turbine (CT)
plants. CTs are generally compared to jet engines in how they operate: they
draw air in at the front of the unit, compress it, mix it with fuel, and ignite it. The
hot combustion gases then expand through turbine blades connected to a
generator to produce electric power. A simple-cycle CT is configured to capture
useful energy for power generation from the expansion of those hot combustion
gases. A combined-cycle CT is configured to pass the products of combustion
through a heat recovery steam generator, which converts this useful energy to
steam. This steam is then used in a steam turbine to produce additional electric
power, increasing the combined-cycle’s efficiency over that of the simple-cycle.

TVA’s portfolio of natural gas/oil-fired facilities as of September 30, 2011,
consisted of 13 facilities with a total of 98 units capable of producing
approximately 8,200 megawatts of electric power. These facilities represent a
mixture of assets that were purchased or leased by TVA and assets that were
constructed under contract with TVA. Construction of facilities such as these is
the responsibility of the Generation Construction organization, previously known
as Fossil Generation Development and Construction (FGD&C).

The FGD&C organization was established in fiscal year 2009 and was
subsequently renamed Generation Construction (GC) during a recent
reorganization within TVA. GC is responsible for, among other things, large
construction projects for all non-nuclear generation groups. The New Unit
Services (NUS) group within GC is responsible for all new, non-nuclear
generation. Most of the work performed by NUS is for the design, procurement,
and construction of simple-cycle and combined-cycle CT plants, including the
Lagoon Creek Combined Cycle Plant (LCC) located near Brownsville,
Tennessee, and John Sevier Combined Cycle Plant (JCC) located near
Rogersville, Tennessee.

In March 2007, TVA published an environmental assessment that stated the
organization was investigating the use of CTs (simple-cycle and combined-cycle)
to address growing power demands and expanded regulatory requirements. In
the same month, the TVA Board of Directors approved the purchase of a
brownfield site1 adjacent to TVA’s existing Lagoon Creek Simple Cycle Plant.

In August 2007, the Board approved a maximum budget of $396 million for the
LCC project, and construction began in August 2008. The budget was increased
in January 2010 to $445 million and again to $474 million in September 2010,
before commercial operation began later the same month. The actual LCC
project cost through March 2012 was approximately $466 million, $70 million over

1
    A brownfield site has existing, disturbed acreage as opposed to a greenfield site, which is undisturbed.
Audit 2011-13781                                                                                       Page 1
Office of the Inspector General                                                        Audit Report


the initial TVA Board-approved budget. However, GC stated in benchmarking
data that LCC at the time had the cheapest cost per kilowatt to construct when
compared to the plants included in the benchmark.

In June 2009, the Board approved a project maximum of $850 million for
construction of JCC, and the budget was set at $817.5 million. The facility began
commercial operation on April 30, 2012, adding approximately 880 megawatts of
generating capacity to the TVA system. According to TVA, the facility was built for
under $790 million, more than $30 million under budget, and began commercial
operation 1 month ahead of schedule.

GC maintains a database of lessons learned from projects on its SharePoint site.
A lesson is defined as some useful knowledge or sense that results from direct
experience. Lessons learned involve collecting information on events and
incidents that either positively or negatively impacted the conduct or performance
of a project. Lessons learned can be used for future projects to prevent repeated
issues and improve subsequent performance, such as other projects similar to
LCC and JCC.

During the construction of LCC, TVA did not have a standard programs and
processes (SPP) document specifically dedicated to managing lessons learned
but instead had multiple SPPs2 that applied to lessons learned. However, in
October 2011, TVA issued TVA-SPP-34.016, Project Lessons Learned
Management, for all new projects with total costs greater than $250,000.

Both the collective SPPs and the newer governing document set the expectation
that the project team will document lessons learned for each project, and those
lessons learned will be applied to the next comparable project. The process to
accomplish those objectives was strengthened with TVA’s governing document
by including the following guidance:

   TVA lessons learned will be documented and applied to other projects.
   Activities for formal lessons learned sessions should be included in the
    project schedule during all phases.
   All project participants are expected to identify lessons learned throughout the
    project, not just at the end.
   The strategic business unit (SBU) should maintain a lessons learned
    repository.
   During initiation, the project team should complete a broad review of lessons
    learned from projects of similar size, complexity, and scope to incorporate
    best practices and develop risk mitigation strategies.


2
    The SPPs were reissued in October 2011 as TVA-SPP-34.012, Project Baseline Management;
    TVA-SPP-34.013, Risk and Contingency Management; and TVA-SPP-34.017, Project Closure, to
    supersede TVA-SPP-34.001, TVA-SPP-34.002, and TVA-SPP-34.004, respectively.
Audit 2011-13781                                                                               Page 2
Office of the Inspector General                                                                  Audit Report


    During planning, the project team should complete a detailed review of
     lessons learned specific to project planning elements and adjust the project
     plan and preliminary scope, schedule, and costs.
    Before and during execution of scheduled activities, the project team should
     complete a focused review of lessons learned on key project activities to
     capture improvement opportunities and identify action-specific areas of risk.

OBJECTIVE, SCOPE, AND METHODOLOGY
Because of the potential usefulness of a sound lessons learned process in
completing generation construction projects effectively and efficiently, we
reviewed the lessons learned process used during the construction of LCC. The
audit objective was to identify lessons learned and how those lessons are being
or can be applied to subsequent construction projects. The audit also focused on
the lessons learned process rather than just substantive testing of lessons from
one project to the next because the process review approach added more value
in the audit team’s opinion.

To achieve our objective, we:

    Obtained and reviewed SPPs for information regarding policies, procedures,
     and control activities that applied to lessons learned. However, we performed
     limited testing of specific controls that were within the scope of our objective.
    Interviewed various members of GC management to obtain information
     related to lessons learned and associated processes.
    Obtained and reviewed the list of lessons learned that GC self-identified for
     the LCC project.
    Visited LCC to interview various plant personnel to obtain potential lessons
     learned not previously documented.
    Obtained and reviewed monthly progress reports dated February 2008
     through September 2010 that were provided to TVA by the LCC contractor in
     order to identify potential lessons learned.
    Requested GC personnel to identify LCC lessons that were applicable to the
     JCC project, resulting in a population of 50 identified lessons.
    Selected a sample of 31, or 62 percent, of the population of 50 LCC lessons
     using nonrandom selection methods. The lessons were not prioritized with
     high, medium, low, or any other means of rank; therefore, the audit team
     judgmentally selected the sample based on the audit team’s perceived ability
     to validate the lesson was actually applied.3 The sample was selected in
     order to determine if those specific lessons were applied during the JCC

3
    To illustrate, the audit team did not perceive that it could easily validate that JCC used stainless steel
    rather than copper for underground instrumentation; therefore, that lesson was not selected as part of the
    sample.
Audit 2011-13781                                                                                      Page 3
Office of the Inspector General                                                        Audit Report


     project. The results of our testing are not projected over the population of
     lessons learned because a random sampling methodology was not used.
    Visited the JCC construction site to obtain documentation for the sampled
     lessons and explanations for the lessons that GC indicated were not
     applicable to JCC, as mentioned above.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We do not express an opinion on TVA’s internal
control structure because this audit was not designed to identify all material
weaknesses in GC’s lessons learned program.

FINDINGS
During the LCC project, multiple SPPs provided guidance on managing lessons
learned including TVA-SPP-34.004, Project Closure, which states that lessons
learned should be documented in an SBU database and TVA-SPP-34.002, Risk
and Contingency Management, which recommends that project teams review
lessons learned from similar projects. We determined GC has a process in place
for lessons learned management, and during the audit, TVA issued a new
procedure dedicated to the process of project lessons learned management,
which provides beneficial guidance on the roles and responsibilities of project
teams in regards to managing lessons learned.

However, we identified some potential areas of improvement in the GC process.
Specifically, we determined (1) there is no documented criteria or review process
for determining what is or is not a lesson learned, (2) the process for documenting
lessons learned could be improved, and (3) there are no mechanisms to
reasonably assure that project teams are reviewing lessons learned from previous
projects or that relevant lessons learned are incorporated into the project’s scope.
In addition, we determined improvements can be made in sharing lessons learned
between organizations.

Criteria to Identify Lessons Learned is Lacking
As previously stated, during construction of LCC, TVA did not have an SPP
specifically dedicated to managing lessons learned. According to GC personnel,
multiple SPPs4 contained verbiage related to managing lessons learned, and
collectively, they represented TVA’s policy in the area at the time construction
was underway. However, none of these documents contain criteria as to what
should or should not be documented as a lesson learned. Without documented

4
    The SPPs included TVA-SPP-34.001, Project Baseline Management; TVA-SPP-34.002, Risk and
    Contingency Management; and TVA-SPP-34.004, Project Closure, which have since been superseded
    by TVA-SPP-34.012, TVA-SPP-34.013, and TVA-SPP-34.017, respectively.
Audit 2011-13781                                                                            Page 4
Office of the Inspector General                                                                     Audit Report


criteria to assist in the judgment of determining lessons learned, the database
may include entries that are not applicable to its intended function and may
exclude relevant items. In that case, the database may not serve its purpose
effectively.

To capture lessons learned during the LCC project, various members of GC and
the engineering, procurement, and construction contractor held group sessions
near the end of the LCC project prior to demobilization. The Project Manager
generally facilitated these sessions, and the participants discussed particular
areas of the project to determine what could have been done better while a
designated team member captured the information to be added to GC’s database
of lessons learned. These lessons were then uploaded to the SharePoint site.

During the course of the audit, TVA issued TVA-SPP-34.016, Project Lessons
Learned Management, effective October 1, 2011, that specifically serves as the
governing document for managing project lessons learned. GC subsequently
issued FGDC-SPP-34.000, Project Process, effective December 1, 2011, that
describes project manager responsibilities for collecting and incorporating
lessons learned and being familiar with the governing document but does not
contain criteria as to what constitutes lessons learned.

In order to determine whether some lessons had not been identified or included
in the database, we reviewed TVA and contractor documentation and interviewed
various GC and Fossil Power Group (FPG) personnel. As described below, not
all lessons learned were included in the GC database.

    We reviewed the monthly progress reports provided to TVA by the LCC
     contractor for February 2008 through September 2010. We looked for issues
     not previously documented in GC’s database but believed by the contractor to
     be impacting the project’s critical path,5 and we identified 13 issues occurring
     on more than one monthly report. According to the LCC Project Manager and
     other GC personnel, most of the issues could be traced to (1) poor schedule
     management during the engineering and construction phases of the project
     and (2) the use of gray market6 equipment. The LCC Project Manager stated
     that NUS took measures to address those issues at the JCC project, although
     these two issues were not captured in GC’s lessons learned database. The
     LCC Project Manager agreed that those issues should be captured in the
     database for future project reviews.
    In September 2010, the Senior Vice President (SVP), GC, presented an LCC
     project summary to TVA’s Chief Operating Officer (COO) that included a list
     of lessons learned during the project. The same list of lessons learned was

5
    Critical path is the sequence of project activities with the longest overall duration, which determines the
    shortest time to complete the project. The critical path duration is the project duration. A delay in
    completing an activity on the critical path directly impacts the project completion date (i.e., there is no
    float on the critical path).
6   Gray market equipment is equipment that is not purchased new from the original equipment
    manufacturer but instead was fabricated to be used at a site other than where it is actually being used.
Audit 2011-13781                                                                                          Page 5
Office of the Inspector General                                          Audit Report


    included in the project closure presentation, which stated the lessons were
    applied to the JCC project and are applicable to most large, complex
    construction projects. However, as of March 20, 2012, those particular
    lessons learned were not documented in GC’s lessons learned database.
   Positive lessons may not be captured as well. The project summary
    described previously included benchmarking data for capital cost of
    constructing combined-cycle plants. GC stated that LCC had the lowest
    construction cost per kilowatt of capacity when compared to the plants
    included in the benchmark, and the COO subsequently stated that LCC has
    performed strongly since going into service. However, GC’s lessons learned
    database included few combined-cycle best practices or positive lessons
    learned aimed at capitalizing on positive experiences, such as the low cost
    presented to the COO. In fact, only two entries in the database were marked
    as best practices for combined-cycle projects; one relates to the proper
    storage of electrical motors to prevent damage from rainwater, and the
    second relates to the use of stay-form material versus other forming systems
    for concrete structures constructed below grade (or underground).
   We interviewed several GC and FPG team members to solicit comments on
    what could have been done better during the LCC project. One issue raised
    by multiple FPG interviewees related to poor communication between the
    construction organization, GC, and the operations organization, FPG, and the
    need to address potential operations concerns during construction.
    Conversely, the FPG Plant Manager at JCC described a positive experience
    when asked about the interface between the two organizations, which
    indicates improvement in this area from one project to the next.

The effect of not including all lessons learned, whether negative or positive, in
the database is that future projects may not benefit fully from the experience of
past projects. In response to the audit team’s preliminary findings, the SVP
stated the organization’s main focus has been for GC project personnel to
actively add lessons learned to the database for projects as they are being
worked. The SVP asks at every Project Approval Board meeting if the lessons
learned being presented have been loaded into the database. Many lessons
learned that existed prior to the creation of the database have been added;
however, the organization will evaluate whether other legacy lessons learned
should be added. Although the SVP maintains that the lessons learned
presented to the COO were generic in nature and for the most part are included
in other procedures, it is our opinion the lessons presented to the COO should be
included in the database so that as procedures and personnel change over time,
the lessons are not lost. Regarding capturing positive experiences, the SVP
stated the current process requires that good practices be included as lessons
learned.




Audit 2011-13781                                                              Page 6
Office of the Inspector General                                                               Audit Report


Process Improvements Could Be Made
We determined that GC has a process in place for lessons learned management;
however, we identified some process areas that could be improved. The process
could benefit from increased scrutiny and control of the lessons learned
database. The details of these improvements are noted below.

Limited Process for Screening Lessons Learned
As described on page 3 in this report, we selected a sample of lessons learned
from LCC that could apply at JCC. Before selecting the test sample, we asked
the JCC Project Manager to identify lessons that did not apply to JCC from a list
of 70 LCC lessons. The JCC Project Manager indicated 20 of the 707 LCC
lessons learned did not apply to JCC for various reasons including 7 entries that
were not actually lessons learned and should have been screened out of the
database. The JCC Project Manager stated some entries that should not have
been considered lessons learned were ‘general knowledge’ such as gasoline-
contaminated diesel fuel due to the wrong fuel being added to the equipment.
Other entries that should not have been considered lessons learned represented
actions that should not be done. For example, vent valves, drain valves, and
some root valves have no means of stopping discharge should they leak.
According to the JCC Project Manager, capping these valves is not a good
practice because if the caps are under pressure, a potential safety hazard is
created for anyone who doesn’t know the caps are under pressure.

The absence of established criteria for determining if issues are lessons learned
may lead to the inclusion of items that do not support the intended function of the
database. In response to the audit team’s preliminary findings, the SVP stated
lessons learned are sometimes subjective, and the organization does not want to
limit what project team members consider a lesson learned. Additionally, when a
new lesson learned is added to the database, the Project Controls Senior
Manager, GC, receives an e-mail alert to review the new lesson. However, the
Project Controls Senior Manager stated he does not review the lessons in detail
when he receives an e-mail alert, and he seldom questions what is submitted in
order to avoid discouraging team members from submitting new lessons to the
GC database.

Database Control Could Be Improved
GC maintains a database of lessons learned from projects on its SharePoint site.
According to the Project Controls Senior Manager, lessons learned can be added
to the database in two ways: (1) a user can access the GC Web site and submit
a single item by populating a series of information boxes, or (2) a file containing
multiple lessons learned can be compiled by the project team and uploaded to
the database by a designated project controls team member. The Project
Controls Senior Manager stated that GC did not want to limit people’s ability to
add lessons learned to the database but had restricted the ability to edit the
database.

7
    For our sample, we selected 31 lessons from a population of 50: the 70 LCC lessons less the 20 that
    were not applicable.
Audit 2011-13781                                                                                   Page 7
Office of the Inspector General                                         Audit Report


In order to evaluate the database restrictions, we submitted two test lessons
through the SharePoint site, one of which did not have all fields populated. Both
test lessons were immediately included in the list of lessons learned, and we
edited one of the test submissions after it was included in the list of lessons
learned. According to the Project Controls Senior Manager, the edit ability was
restricted to two individuals when the organization was using Microsoft
SharePoint 2007, but the organization upgraded to SharePoint 2010 and that
security feature did not transfer. We provided our preliminary findings to the
SVP, who stated the issue had been addressed. The SVP stated when a lesson
learned is added to the database or edited, the Project Controls Senior Manager
receives an e-mail alert to review the new or edited lesson. We subsequently
attempted to edit a lesson prior to issuance of this report and were unable to do
so.

We also identified lessons learned in the database that were missing pieces of
information, such as a description of, and solution to, the problem, or the name
and date submitted. The absence of key pieces of information (i.e., solution or
person submitting) may prevent the organization from taking full advantage of the
lesson. According to the SVP, many of the lessons learned were imported into
the database from projects completed prior to the creation of the database, and
most of those items did not have all of the key pieces of information.

Mechanisms for Review
We selected a sample of 31 from a population of 50 LCC lessons that were,
according to GC personnel, applicable to the JCC project to determine whether
these lessons were implemented at JCC. GC personnel provided evidence of
implementation for 27, or 87 percent, of the sampled 31 lessons learned, which
indicates a good performance at incorporating knowledge documented from LCC
into the JCC project. According to GC, 2 of the 4 lessons were not implemented
due to timing (i.e., the related process was already complete at JCC when the
lesson was brought forward from LCC). GC did not respond to the audit team’s
requests for documentation of the remaining 2 lessons.

According to the Project Controls Senior Manager, the organization recently
conducted a self-assessment that included two questions related to lessons
learned:

1. Are you reviewing lessons learned in the planning stage of your project?

2. Are you documenting lessons learned in the database?

The Project Controls Senior Manager stated, of the eight responses received at
the time, two of the respondents, or 25 percent, stated “no” to the above
questions but indicated they would begin doing so on future projects. According
to the Project Controls Senior Manager, there is no mechanism to reasonably
assure project teams are reviewing lessons learned from previous projects or
relevant lessons learned are incorporated into the project’s scope.

Audit 2011-13781                                                              Page 8
Office of the Inspector General                                             Audit Report


The effect of project teams not reviewing the database for relevant lessons
learned is that positive events may not be repeated and negative events may not
be prevented. In response to the audit team’s preliminary findings, the SVP
stated TVA-SPP-34.016 requires project teams to review the lessons learned
database for similar type projects and include applicable items in the project
baseline and/or risk register. Additionally, periodic self-assessments are
conducted to ensure compliance with the procedure. While we agree with this
practice to improve compliance, in the audit team’s opinion, self-assessments are
primarily detective in nature and identify occurrences of noncompliance rather
than prevent those occurrences.

Use of Lessons Learned Between Organizations
TVA-SPP-34.004 stated lessons learned should be documented in an SBU
database, and TVA-SPP-34.002 recommended project teams review lessons
learned from similar projects. According to various TVA personnel, organizations
generally differ in how they document and handle lessons learned. Rather than
documenting lessons learned in a TVA-wide repository, GC documents lessons
learned on its SharePoint site; whereas, Gas Operations, Coal Operations, and
Nuclear Construction utilize Maximo. According to the JCC Project Manager,
some information has been shared between GC and Nuclear Construction, but
lessons learned have not been shared globally.

The audit team discussed with the JCC Project Manager how different
organizations within TVA can benefit from one another. One example was noted
during a different audit being conducted at Bellefonte Nuclear Plant by the Office
of the Inspector General. Two senior managers at Bellefonte Nuclear Plant
stated they saw a great work control process at JCC that provided a work
package to workers when coming onto the job site, so they know exactly what
they are accountable for each day. Another example of how different
organizations can learn from one another was mentioned by the JCC Project
Manager who stated the cooling towers at JCC and Browns Ferry Nuclear Plant
(BFN) are similar, and BFN contacted JCC to discuss some related piping
questions. BFN knew to contact JCC because of a third party outside TVA; the
contractor at BFN had listed JCC as a reference where the same work had been
completed. Additionally, the lessons learned from the project summary
mentioned on page 5 of this report are broad-sweeping and could be beneficial to
organizations other than GC. Further, the audit team interviewed several
FGD&C and FPG team members to solicit comments on what could have been
done better during the LCC project. We noted the general issues being raised by
FPG, such as gray market equipment issues, were not included in GC’s
database of lessons learned, and while GC does not view the issues raised by
FPG as lessons learned, the comments may have merit for other organizations.

The effect of not utilizing an entity-wide repository for lessons learned, positive or
otherwise, is that future projects may not benefit fully from the wealth of
experience TVA has amassed from past projects, and this void contributes to
organizational silos. A consistent process used by all TVA organizations would
aid in effectively taking advantage of lessons learned across TVA, not just at the
Audit 2011-13781                                                                 Page 9
Office of the Inspector General                                           Audit Report


SBU level. In response to the audit team’s preliminary findings, the SVP stated
all TVA organizations have access to the GC SharePoint database, and SBU
representatives of the Project Management Peer Team have seen a
demonstration of the site. However, the audit team is of the opinion that it is less
likely for those outside of GC to review a specific organization’s database as
compared to a centralized database containing all lessons learned that can be
filtered in various ways.

RECOMMENDATIONS
We recommend the GC organization:

1. Develop and document criteria for determining if issues are in fact lessons
   learned and/or best practices.

2. Ensure the database is complete with all lessons learned including those
   presented to the COO and best practices from positive experiences to
   promote repeat application in future projects.

3. Develop and implement a process for screening new and edited lessons
   learned for reasonableness, consistency, completeness, and other target
   qualities.

4. Systematically require all fields to be populated when submitting a lesson
   learned or initiate a process to track down the missing information. Also,
   manage database integrity by removing the entries that do not include a
   problem description or ensuring the problem description is completed.

5. Develop mechanisms to provide reasonable assurance that project teams
   (a) review the database for lessons learned from previous projects and
   (b) incorporate relevant lessons learned into the project’s scope. One option
   would be for the project team to sign-off on the project process checklist that
   these activities were completed.

6. In cooperation with other organizations, develop an entity-wide repository to
   capture the details of lessons learned across TVA organizations so that those
   outside the originating organization can also benefit from the experiences.

MANAGEMENT’S RESPONSE AND OUR EVALUATION
TVA management generally agreed with our recommendations and has taken, or
is taking, the following actions:

   A lessons learned guide, including criteria for problems and best practices,
    has been added to the GC SharePoint.


Audit 2011-13781                                                              Page 10
Office of the Inspector General                                        Audit Report


   GC now requires certain fields be completed before a lesson learned can be
    submitted. In addition, lessons learned with no problem description have
    been removed from the database.
   A check sheet, which includes lessons learned, will be added to TVA-SPP-
    34.019, Project Process, scheduled to go into effect October 1, 2012.
   Through the Project Management Peer Team, all TVA organizations with
    projects are developing lessons learned databases similar to GC’s. These
    will have common access through a TVA Project Management SharePoint
    site.

The Office of the Inspector General agrees with the actions planned and taken by
TVA management.

With regard to our recommendation to include all lessons learned in the
database, TVA management stated legacy lessons learned were previously
added to the database in fiscal year 2011, and GC has no plans to add other
legacy issues.

With regard to our recommendation to develop and implement a process for
screening new lessons learned, TVA management stated the automatic alert is
sent to the GC Project Controls Senior Manager “ . . . for review for
reasonableness, consistency, completeness, and other target qualities . . . ”
when a new lesson is added to the database. However, as previously stated in
this report, the Project Controls Senior Manager stated he does not review the
lessons in detail when he receives the e-mail alert and seldom questions what is
submitted in order to avoid discouraging team members from submitting new
lessons to the GC database. While we agree with the automatic alert being in
place, we encourage GC to take further steps to ensure new lessons learned are
reviewed.




Audit 2011-13781                                                          Page 11
APPENDIX
Page 1 of 3
APPENDIX
Page 2 of 3
APPENDIX
Page 3 of 3
